THE FEDERAL RAILROAD ADMINISTRATION CAN
  IMPROVE HIGHWAY-RAIL GRADE CROSSING
   SAFETY BY ENSURING COMPLIANCE WITH
 ACCIDENT REPORTING REQUIREMENTS AND
     ADDRESSING SIGHT OBSTRUCTIONS
         Federal Railroad Administration

          Report Number: MH-2007-044
            Date Issued: May 3, 2007
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: The Federal Railroad Administration                                          Date:    May 3, 2007
           Can Improve Highway-Rail Grade Crossing Safety
           by Ensuring Compliance With Accident Reporting
           Requirements and Addressing Sight Obstructions
           Report Number: MH-2007-044

                                                                                             Reply to
  From:
                                                                                             Attn. of:   JA-40
           Kurt W. Hyde
           Assistant Inspector General
            for Surface and Maritime Programs

    To:    Federal Railroad Administrator

           This report presents the results of the Office of Inspector General’s (OIG) audit of
           the Federal Railroad Administration’s (FRA) activities to oversee safety at the
           Nation’s highway-rail grade crossings (grade crossings). 1 In response to
           congressional concerns about grade crossing safety, we conducted this audit at the
           request of Representatives James L. Oberstar and Corrine Brown of the House
           Committee on Transportation and Infrastructure and Senator Daniel K. Inouye of
           the Senate Committee on Commerce, Science, and Transportation.

           This report is a follow-up to the audit report we issued on November 28, 2005,
           which addressed three key grade crossing safety issues. In the 2005 report, 2 we
           found that FRA had: (1) not identified collisions that the railroads were required
           to report to the National Response Center (NRC), 3 (2) conducted investigations on
           less than 1 percent of grade crossing collisions, and (3) not taken strong actions to
           1
               Grade crossings are classified as public and private. Public grade crossings are eligible for improvements using
               Federal funds under the Section 130 program (Title 23, United States Code, Section 130) and are maintained by
               public transportation authorities. Private grade crossings are on roadways owned by private companies or citizens
               and are not eligible for these Federal funds.
           2
               OIG Report No. MH-2006-016, “Audit of Oversight of Highway-Rail Grade Crossing Accident Reporting,
               Investigations, and Safety Regulations,” November 28, 2005. OIG reports can be accessed on our website at:
               www.oig.dot.gov.
           3
               As part of the Department of Homeland Security, NRC is the Federal Government’s 24-hour point of contact for
               environmental discharges in the United States and its territories. In addition, through agreements containing criteria
               that serve as triggers for reporting, NRC notifies FRA and other Federal agencies of fatal and serious train accidents
               and grade crossing collisions.
                                                                                                                       2


enforce critical safety laws. To its credit, FRA agreed to take corrective actions to
address these safety issues. For example, FRA implemented a reconciliation
process in July 2004 to determine whether the railroads report all fatal and serious
grade crossing collisions to NRC, as required by Federal regulations.4
Subsequently, in March 2005, FRA began issuing civil penalties to railroads that
failed to immediately report grade crossing collisions to NRC. The findings
presented in our current audit address the non-NRC reporting requirement where
railroads must report every grade crossing collision to FRA within 30 days of the
end of the month in which the collision occurred. This audit report, and the one
issued in 2005 will close out this body of congressionally requested work.

Our body of work on FRA’s oversight programs has found grade crossing safety
to be a “centerpiece” of rail safety. 5 The second highest percentage of train
accident fatalities—42 percent from 1995 through 2005—is due to collisions at
grade crossings. 6 The objective of this audit was to assess the adequacy of FRA’s
oversight of the railroads’ reporting of grade crossing collisions, as required by
Federal law. 7 Our audit was based on the requirements contained in Title 49,
Part 225 of the Code of Federal Regulations and the FRA Guide for Preparing
Accident/Incident Reports. 8 Trespassing fatalities and injuries on railroad
property were not included in this audit.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards prescribed by the Comptroller General of the
United States.    Exhibit A contains details on the objective, scope, and
methodology we used in conducting this audit and information on our prior audit
coverage. Exhibit B lists the activities we visited or contacted.

BACKGROUND
From 1995 through 2005, 9 the U.S. Department of Transportation (Department),
state transportation agencies, railroads, law enforcement agencies, and safety
advocacy groups made significant progress in reducing the number of grade
crossing collisions and fatalities. The total number of grade crossing collisions
fell by 34 percent, from 4,633 at the end of 1995 to 3,050 at the end of 2005.
During the same time period, the total number of fatalities decreased from 579 to
357, or by 38 percent. Exhibit C presents the total number of grade crossing

4
    See 49 CFR, Part 225.9.
5
    OIG Testimony CC-2007-018, “Reauthorization of the Federal Railroad Safety Program,” January 30, 2007.
6
    Trespassing fatalities is the leading category of rail-related fatalities for that period, accounting for 52 percent.
7
    See 49 CFR, Part 225.19 and Title 49, United States Code, Section 20901, et seq.
8
    The FRA guide provides instructions to the railroads for reporting rail-related accidents and incidents.
9
    Throughout this report, unless otherwise indicated, calendar year data are reported. The number of grade crossing
     collisions, fatalities, and injuries were obtained from FRA, as of March 1, 2007, and represent the most reliable
     annual statistics available. Statistics for 2006 were too preliminary for inclusion in this report.
                                                                                                                     3


collisions, fatalities, and injuries reported by the railroads from 1995 through
2005. Exhibit D shows, by state, the reported number of collisions and fatalities
that occurred at grade crossings in the United States during 2005.

Although significant progress was made over the last decade—1995 to 2005—
reported grade crossing collisions increased from 2003 to 2005. During the latter
period, collisions rose from 2,977 to 3,050 (3 percent) and the number of fatalities
increased from 334 to 357 (7 percent), with 2004 documenting a higher increase
than 2005. These increases and the upward trend in the volume of train and
highway traffic indicate that more must be done at the Federal and state level to
improve grade crossing safety. Our body of work on grade crossing safety has
shown the need for FRA to develop more focused strategies to further reduce
collisions and fatalities.

RESULTS IN BRIEF
We found that FRA can do more to improve grade crossing safety by ensuring
compliance with its mandatory reporting requirements for crossing collisions and
addressing sight obstructions that block highway users’ view of approaching
trains. Nationwide, on average, one person died and three people were injured
every day in grade crossing collisions that occurred in 2005, based on data
reported by the railroads to FRA. The railroads investigate grade crossing
collisions involving their on-track equipment and are required to report each
collision to FRA within a specified time frame. 10 Accurate, timely, and complete
reporting of each grade crossing collision can help FRA to identify safety
problems so appropriate corrective actions can be taken. Complete information on
grade crossing collisions is also important to state transportation officials who
must decide where to spend Federal funds set-aside annually for crossing safety
improvements.

Specifically, we found that:

       • FRA can do more to ensure compliance with mandatory reporting
         requirements, including reviewing the railroads’ grade crossing collision
         records and assessing civil penalties for reporting failures. Federal safety
         regulations require the railroads to report every grade crossing collision to
         FRA within 30 days of the end of the month in which the collision
         occurred. Accurate, timely, and complete reporting of grade crossing
         collisions serves the important purpose of ensuring that railroad inspections
         are properly targeted and state transportation officials have essential

10
      Railroads are required to report grade crossing collisions to FRA within 30 days of the end of the month in which
     the collision occurred. For example, a collision that occurred on any day in March should be reported to FRA by
     April 30.
                                                                                 4


   information when spending Federal funds on grade crossing safety
   improvements. Moreover, FRA has the authority to issue a violation and
   assess a civil penalty when a railroad fails to report a grade crossing
   collision.

   Our work identified 12 railroads between 1999 and 2004 that did not report
   139 collisions to FRA on time, with some being reported nearly 3 years
   late. These collisions resulted in 2 fatalities and 20 injuries, as ultimately
   reported by the railroads. Although these numbers are not large, FRA does
   not know whether all collision reports have been submitted, as required,
   because it had not routinely reviewed the grade crossing collision records
   maintained by the railroads to ensure compliance with its reporting
   requirements.

   We also found that FRA did not consistently issue violations and assess
   civil penalties each time a railroad failed to report a grade crossing collision
   to its accident reporting system. For example, for the 139 instances of
   noncompliance with mandatory reporting requirements, FRA issued 57
   violations to 8 of the 12 railroads and opted not to issue violations for the
   other 82 collision reports. The need for FRA to take consistent actions to
   enforce mandatory reporting requirements is an area that calls for additional
   measures.

   We recommend, among other actions, that FRA develop and implement an
   action plan for reviewing grade crossing collision records maintained by the
   railroads. Further, FRA should issue a violation every time a railroad does
   not report a grade crossing collision in accordance with Federal
   requirements. A violation notice triggers the assessment of civil penalties,
   and railroads that repeatedly fail to report grade crossing collisions
   appropriately should receive higher penalties.

• FRA has no assurance that sight obstructions are addressed at passive
  grade crossings (those without automated warning devices) in most states.
  We found that greater attention is needed to ensure that highway users have
  a full view of approaching trains at the Nation’s grade crossings. When
  grade crossings are not protected by automatic gates, flashing lights, and
  other automated warning devices, it is imperative that highway users have a
  clear view of approaching trains to determine when it is safe to cross. Sight
  obstructions—structures that block highway users’ view of approaching
  trains and overgrown vegetation—can be a contributing factor in grade
  crossing collisions, based on FRA’s data. From 2001 through 2005,
  689 grade crossing collision reports submitted to FRA by the railroads
                                                                                                                    5


            documented a sight obstruction.11                       These 689 collisions resulted in
            87 fatalities and 242 injuries.

            As of March 2007, 37 states lacked laws or regulations for addressing all
            types of sight obstructions at grade crossings with passive warnings. FRA
            should work with the Federal Highway Administration (FHWA) to develop
            model legislation for states to improve safety by addressing sight
            obstructions at grade crossings without automated warning devices.

FINDINGS

FRA Has Not Periodically Reviewed the Railroads’ Grade Crossing
Collision Records and More Can Be Done To Ensure Compliance
With Mandatory Reporting Requirements
Railroads are required by Federal law to report every impact, regardless of
severity, between a railroad’s on-track equipment and any user of a public or
private grade crossing. Although FRA officials told us that the railroads report
most grade crossing collisions, as required, our audit work continues to identify
areas where this did not occur. As a result, there are steps that FRA can take to
improve safety. Specifically, we found that FRA’s oversight for grade crossing
safety did not include periodic reviews of railroads’ collision records to ensure the
railroads had complied with FRA’s mandatory reporting requirements. Without
such an oversight activity, FRA can not ensure that the 15,416 grade crossing
collisions the railroads reported from 2001 through 2005 represent all the
collisions that occurred during those years. In addition, FRA’s oversight does not
include testing random samples of railroads’ grade crossing collision reports to
determine whether the information is accurate, timely, and complete.

Under Federal safety regulations, the railroads are required to report each collision
to FRA within 30 days of the end of the month in which the collision occurred.
For instance, a grade crossing collision that occurred on any day in March should
be reported to FRA by April 30. However, past reviews of grade crossing
collision reports conducted by FRA, state transportation agencies, and our office
identified issues with the completeness of FRA’s accident reporting system.
These reviews identified 12 railroads that did not report 139 collisions to FRA in
accordance with mandatory reporting requirements. We documented 135
collisions—involving 2 fatalities and 20 injuries—that were reported from
2 months to nearly 3 years late to FRA’s accident reporting system and 4 that have
never been reported.

11
     FRA’s grade crossing collision report requires the railroads to document the conditions at a collision scene. The
     report does not require the railroads to identify a primary or secondary cause.
                                                                                                                      6




When FRA took enforcement action, it issued 57 violations to 8 of the 12 railroads
for not complying with its mandatory reporting requirements for grade crossing
collisions and opted not to issue violations for the other 82 collision reports.
Specific information about the 139 grade crossing collisions that were not reported
in accordance with Federal requirements is discussed below.

       • From 1999 through 2001, a Class I freight railroad 12 did not report 95 grade
         crossing collisions. These collisions resulted in 2 fatalities and 15 injuries.
         FRA officials conducted a system-wide review of this railroad’s grade
         crossing collision reporting process in August 2001, after a Florida
         transportation official informed FRA of 11 unreported collisions that
         occurred in 1999. Subsequently, FRA issued violations for 20 of the 95
         grade crossing collisions that the railroad had not reported. Because of
         FRA’s practice of bundling or combining multiple violations into one
         enforcement case, 13 we could not identify the amount of civil penalties
         assessed and collected that related to grade crossing collision reporting.
         For the remaining 75 grade crossing collisions, FRA did not issue
         additional violations or assess civil penalties.

       • In January 2005, FRA officials conducted another review of the same Class
         I freight railroad cited above and found an additional 29 grade crossing
         collisions that the railroad had not reported to FRA’s accident reporting
         system in 2003 and 2004. These collisions resulted in 2 injuries and no
         fatalities. FRA issued violations and assessed civil penalties for each of the
         29 required collision reports that the railroad had not submitted because it
         had previously issued violations against this railroad for not complying
         with mandatory grade crossing reporting requirements. Again, we could
         not identify the amount of civil penalties the railroad paid because of
         FRA’s practice of bundling violations.

       • In 2003, another Class I freight railroad and two smaller railroads did not
         report five grade crossing collisions in Iowa. These collisions resulted in
         three injuries. An Iowa transportation official, as a result of reviewing
         police accident reports, notified the responsible railroads of the omissions.
         Because these railroads immediately submitted the required grade crossing
         collision reports to FRA when the discrepancies were identified, no
         violations were issued for noncompliance with Federal reporting
         requirements.

12
     As of 2006, Class I railroads were freight companies with annual operating revenues in excess of $289.4 million.
13
     After violations are issued, FRA employees process the violation reports, combine them into cases, and determine the
     amount of civil penalties to assess for each case. Subsequently, Federal law allows FRA to compromise the amount
     of the civil penalty with each railroad, resulting in the collection of a lower dollar payment.
                                                                                  7




   • In 2005, we identified 10 grade crossing collisions that had occurred in
     Illinois in 2003, but had never been reported to FRA. We identified these
     unreported collisions by comparing motor vehicle accident reports filed by
     local police departments to data in FRA’s accident reporting system. After
     we informed FRA of these unreported grade crossing collisions, it issued
     violations against seven railroads for not reporting eight grade crossing
     collisions, as required by Federal law. FRA did not issue violations for the
     other two collisions.

Further, for one Class I railroad, FRA officials identified problems with the
accuracy of injury data in grade crossing reports submitted from January 2005
through July 2006. In November 2006, FRA officials found an unusually low
number of injuries reported for grade crossing collisions involving this railroad
when the train and/or motor vehicle were traveling in excess of 35 miles per
hour—no injuries were reported for 154 collisions. FRA officials concluded that
this railroad was not adequately seeking or collecting injury information.
Subsequently, FRA issued one safety violation to this railroad for failing to have
an adequate procedure for determining the extent of injuries to highway users
involved in grade crossing collisions.

Accurate, timely, and complete reporting of grade crossing collisions serves an
important purpose of identifying safety problems so appropriate corrective actions
can be taken. Further, by ensuring that every grade crossing collision is reported
on time, FRA and states will have access to critical data for identifying dangerous
grade crossings and emerging accident trends. Complete information on grade
crossing collisions is also essential for state transportation officials who must
decide where to spend Federal funds set-aside annually for crossing safety
improvements. For example, after written reports for the five unreported grade
crossing collisions in Iowa were submitted to FRA, the Iowa Department of
Transportation used the information provided by the railroads as the basis for
allocating funds for safety improvements at two of the five grade crossings. If
those unreported collisions had not been identified, it is likely that safety
improvements would not have been made to these two dangerous crossings.

At the time of our fieldwork, FRA did not (1) have an action plan for reviewing
the railroads’ grade crossing collision records, (2) conduct periodic reviews of the
railroads’ grade crossing collision records to assess their compliance with
mandatory reporting requirements, or (3) test random samples of the railroads’
grade crossing collision reports to determine whether the information reported is
accurate, timely, and complete. When we inquired about FRA’s actions to
identify unreported collisions, FRA did not advise us that it had developed a plan
for reviewing the railroads’ grade crossing collision records. However, after we
                                                                                                                     8


     issued our March 2007 draft report, FRA provided us excerpts from a National
     Safety Program Plan for reviewing railroads’ grade crossing collision records.
     FRA has yet to provide us a complete copy for review.

     Further, FRA has not consistently issued a violation and assessed a civil penalty
     each time a railroad failed to report a grade crossing collision in accordance with
     Federal requirements. FRA needs to strengthen its oversight activities to ensure
     that railroads comply with Federal safety laws to report each grade crossing
     collision.

     FRA Has No Assurance That Sight Obstructions Are Addressed in
     States That Lack Laws, but It Can Do More To Address This Safety
     Issue
     Our analysis of grade crossing collision reports and related audit work found that
     greater attention is needed to ensure that highway users have a full view of
     approaching trains at the Nation’s grade crossings. When grade crossings are not
     protected by automated warning devices, it is imperative that highway users have
     a clear view of approaching trains to determine when it is safe to cross. As
     illustrated in Figure 1, vegetation growth at grade crossings can significantly
     reduce a motorist’s ability to see the track and approaching trains.

          Figure 1. Photographs of Highway Users’ Line of Sight at a
           Grade Crossing Before and After Vegetation Was Cleared
           Highway Users’ View                                         Highway Users’ View
         Before Clearing Vegetation                                  After Clearing Vegetation




Source: Illinois Commerce Commission*
*The State of Illinois requires every rail carrier to remove all brush, shrubbery, and trees from its right-of-way
 for a distance of at least 500 feet in either direction of a grade crossing.

     Based on FRA data, sight obstructions can be a contributing factor in grade
     crossing collisions. Of the 15,416 grade crossing reports submitted by the
     railroads from 2001 through 2005, 689 documented a sight obstruction. The
                                                                                                                      9


reported sight obstructions included permanent structures (175), standing railroad
equipment (82), passing trains (51), topography (76), vegetation (142), highway
vehicles (53), and other obstructions (110). These 689 collisions resulted in
87 fatalities and 242 injuries.

Nationwide, there are nearly 76,000 public grade crossings that are not protected
with automated warning devices. Currently, FRA regulations only require the
railroads to address vegetation growth at these public crossings—as opposed to all
types of sight obstructions—and only to the extent that vegetation reduces the
visibility of railroad signs and signals. Further, as of March 2007, only 13 states
had passed laws or issued regulations that address all types of sight obstructions at
grade crossings. 14 In the 37 states without such laws or regulations, highway users
must rely on property owners to voluntarily comply with guidance from FHWA
and the American Association of State Highway and Transportation Officials and
the policies and practices implemented by individual railroad companies.

For the states that lack laws or regulations for addressing sight obstructions at
grade crossings that are not protected with automated warning devices, such as
gates and lights, more needs to be done. For those 37 states, immediate safety
benefits could be achieved if laws were established to address all types of sight
obstructions, such as structures that block highway users’ view of approaching
trains and overgrown vegetation.          Although guidelines to address sight
obstructions exist at the national level, they are not enough. FRA should work
with FHWA to develop model legislation for states to address sight obstructions at
grade crossings that are equipped solely with signs, pavement markings, and other
passive warnings.

RECOMMENDATIONS
We recommend that FRA:

1. Strengthen safety oversight by ensuring that the railroads comply with
   mandatory requirements to report each grade crossing collision to FRA’s
   accident reporting system by:

            a. Developing and implementing an action plan for conducting periodic
               reviews of the grade crossing collision records maintained by each
               railroad, including promptly notifying the responsible railroads when
               unreported collisions are identified.



14
     As of March 2007, 41 states had laws or regulations that address vegetation growth, but only 13 of these states had
     laws or regulations that address all types of sight obstructions.
                                                                                  10


      b. Testing random samples of the railroads’ grade crossing collision
         reports to determine whether the information is accurate, timely, and
         complete, including comparing such reports to those generated by local
         law enforcement agencies.

      c. Issuing a violation and assessing a civil penalty each time a railroad
         fails to submit a grade crossing collision report in accordance with
         Federal requirements, on a consistent basis. Moreover, FRA should
         assess higher civil penalties against each railroad that repeatedly fails to
         report crossing collisions.

2. Work with FHWA to develop model legislation for states to improve safety by
   addressing sight obstructions at grade crossings that are equipped solely with
   signs, pavement markings, and other passive warnings.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
A draft of this report was provided to FRA for comment on March 22, 2007. On
April 16, 2007, FRA provided us with its formal response, which is contained in
its entirety in the Appendix. As a general point, in its response FRA stated that it
has “no general mandate to oversee safety at the Nation’s highway-rail grade
crossings.” Instead, FRA views grade crossing safety as “a shared, intermodal,
and intergovernmental challenge.” We find this statement puzzling, since FRA is
the Department’s central point of contact for rail safety. For example, the
Secretary designated FRA as the lead for developing the Department’s 1994 and
2004 action plans for grade crossing safety. We are, however, encouraged by
FRA’s concluding remarks that it is prepared to do its part in addressing the
challenges of grade crossing safety.

Recommendation 1a: FRA did not specifically state that it concurred or
disagreed with our recommendation to strengthen safety oversight by ensuring that
the railroads comply with mandatory requirements to report each grade crossing
collision to FRA’s accident reporting system. However, FRA stated that it has
already taken actions to develop and implement an action plan, specifically the
National Safety Program Plan, for conducting periodic reviews of the railroads’
grade crossing collision records.

OIG Response: FRA actions to initiate its National Safety Program Plan
generally meet the intent of our recommendation. However, since FRA did not
inform us that it had developed this plan for reviewing railroads’ grade crossing
collision records or provide us with a copy of the plan when we inquired about
actions to identify unreported collisions, this recommendation will remain
                                                                                     11


unresolved until FRA provides us a copy of its complete National Safety Program
Plan for our review.

Recommendation 1b: FRA generally agreed with this recommendation and
stated that it “seeks further consultation regarding means of implementation as
experience in working with available resources is gained.”

OIG Response: Although FRA generally agreed with this recommendation, we
do not consider its comments responsive. First, FRA’s comment regarding the
need for further experience is unclear. Second, FRA did not state what testing will
be done. Instead, FRA states what it has already done and what it “can and should
require,” but did not provide any specific information regarding exactly what will
be done or the timetable for completion. FRA also referred to a pilot study that
addressed the feasibility of collecting independent information to corroborate the
railroads’ reporting of grade crossing collisions. The pilot study began in
April 2006 and was anticipated to take 12 months. However, as of April 2007,
FRA had not issued those results. We continue to believe that FRA should not
totally rely upon the railroads’ self-certification of grade crossing collision reports.
Accordingly, we request that FRA reconsider its response and provide specific
actions for testing samples of the railroads’ grade crossing collision records to
determine whether the information is accurate, timely, and complete, including a
target date for implementing this recommendation.

Recommendation 1c: FRA generally concurred with this recommendation, but
stated some reservations about assessing civil penalties on small railroads.

OIG Response: Although FRA generally agreed with the intent of the first part of
our recommendation, it did not propose any new actions or address the second part
of the recommendation calling for assessing higher civil penalties for railroads that
repeatedly fail to report grade crossing collisions. Accordingly, we request that
FRA provide target dates for amending its regulation and related guidance for
issuing violation reports for failures to report grade crossing collisions. We also
request that FRA reconsider its response and provide specific actions, including a
target completion date, for assessing higher civil penalties when railroads
repeatedly fail to submit grade crossing collision reports.

Recommendation 2: FRA supports the intent of our recommendation and stated
that it will work with FHWA to develop model legislation for states to improve
safety by addressing sight obstructions at grade crossings with passive warning
signs.
                                                                              12


OIG Response: FRA’s response meets the intent of our recommendation.
However, we request that FRA provide a target date for developing and
distributing model legislation to the states.

ACTIONS REQUIRED
In accordance with DOT Order 8000.1C, we request that FRA provide us with
additional information and target completion dates on all of our recommendations,
as discussed above, within 30 calendar days from the date of this report.

We appreciate the courtesies and cooperation of FRA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or Brenda R. James, Program Director, at (202) 366-0202.
                                                                                                                         13

EXHIBIT A. OBJECTIVE, SCOPE, METHODOLOGY, AND PRIOR
AUDIT COVERAGE

Objective, Scope, and Methodology
The objective of this audit was to assess the adequacy of FRA’s oversight of the
railroads’ reporting of grade crossing collisions, as required by Federal laws. To
accomplish this objective, we reviewed and analyzed Federal and state laws,
regulations, policies, procedures, guidance, and other relevant information to
understand FRA’s requirements for reporting grade crossing collisions. We
conducted audit work at FRA Headquarters in Washington, D.C., by analyzing its
Railroad Accident/Incident Reporting System 15 to determine whether the
information was accurate, timely, and complete and in compliance with Federal
reporting requirements. To identify trends, we analyzed FRA’s public and private
grade crossing collision data from 2001 through 2005. From January through
August 2006, we temporarily suspended our work on this project to devote
resources to our audit of emergency repair contracts awarded by the Mississippi
Department of Transportation after Hurricane Katrina.

We also conducted audit work through state transportation departments in Florida,
Illinois, and Iowa. With their cooperation, we identified grade crossing collisions
that were not reported to FRA from 1999 through 2004. We visited the four
largest railroads—Burlington Northern Santa Fe Railway (BNSF) in Fort Worth,
Texas; CSX Transportation (CSX) in Jacksonville, Florida; Norfolk Southern
Corporation (NS) in Norfolk, Virginia; and Union Pacific Railroad (UP) in
Omaha, Nebraska. We met with the appropriate railroad representatives and
discussed their roles and responsibilities, requirements, processes, and training
programs for collision reporting. We used the information obtained to identify
weaknesses and to assess compliance with Federal requirements for reporting
grade crossing collisions.

We conducted this performance audit from September 2004 through March 2007,
in accordance with Generally Accepted Government Auditing Standards
prescribed by the Comptroller General of the United States. It was conducted as
part of the overall audit effort that resulted in our report on the “Audit of
Oversight of Highway-Rail Grade Crossing Accident Reporting, Investigations,
and Safety Regulations,” which was issued on November 28, 2005.




15
     This system collects data the railroads are required to report on grade crossing collisions, fatalities, and injuries and
     information on other rail-related accidents/incidents.

Exhibit A. Objective, Scope, Methodology, and Prior Audit
Coverage
                                                                                14

Prior Audit Coverage
OIG Report Number RT-1999-140, “Rail-Highway Grade Crossing Safety,”
September 30, 1999, disclosed that the Department’s efforts had reduced the
number and the rate of grade crossing collisions and fatalities during the first
5 years of the 1994 Action Plan. However, to make further progress, the OIG
recommended that FRA focus on proven cost-effective strategies, improve the
program’s collision and inventory data, and better monitor state spending of
Federal funds.

On June 16, 2004, we issued follow-up Report Number MH-2004-065, “Highway-
Rail Grade Crossing Safety Program.” We reported that the Department came
close to meeting its 1994 Action Plan goal of fewer than 2,500 grade crossing
collisions and 300 fatalities at the end of 2003. Much of this progress largely was
attributable to addressing the “low-hanging fruit,” such as upgrading crossings
with automatic gates and flashing lights. To achieve further improvements, we
recommended that the Department adopt a targeted approach that focuses on states
and public crossings that continued to have the most collisions.

On November 28, 2005, we issued Report Number MH-2006-016, “Audit of
Oversight of Highway-Rail Grade Crossing Accident Reporting, Investigations,
and Safety Regulations.” We reported that railroads failed to immediately notify
the National Response Center of 21 percent of reportable grade crossing collisions,
the Federal Government investigated only 9 of the 3,045 collisions that occurred
in 2004, and FRA recommended only 347 violations for the 7,490 critical safety
defects it identified. Given the 2004 increase in collisions and fatalities, we
recommended that FRA take a proactive oversight approach by clarifying its
reporting requirements, collecting and analyzing independent grade crossing
collision data, and increasing enforcement of existing safety regulations in the
areas that posed the greatest threat to public safety.




Exhibit A. Objective, Scope, Methodology, and Prior Audit
Coverage
                                                   15

EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

Federal Railroad Administration
Office of the Associate Administrator for Safety

State Agencies
Department of Transportation
  Florida          Illinois           Iowa

Railroads
Burlington Northern Santa Fe Railway Company
CSX Transportation
Norfolk Southern Corporation
Union Pacific Railroad




Exhibit B. Activities Visited or Contacted
                                                                   16

EXHIBIT C. NUMBER OF REPORTED GRADE CROSSING
COLLISIONS, FATALITIES, AND INJURIES FOR CALENDAR
YEARS 1995 THROUGH 2005

               Year           Collisions   Fatalities   Injuries
               1995             4,633          579       1,894
               1996             4,257          488       1,610
               1997             3,865          461       1,540
               1998             3,508          431       1,303
               1999             3,489          402       1,396
               2000             3,502          425       1,219
               2001             3,237          421       1,157
               2002             3,077          357         999
               2003             2,977          334       1,035
               2004             3,075          372       1,090
               2005             3,050          357       1,012
        Total Percentage of        -34          -38        -47
              Change
        From 1995 to 2005
         Source: FRA




Exhibit C. Number of Reported Grade Crossing Collisions,
Fatalities, and Injuries for Calendar Years 1995 Through 2005
                                                                                                                          17

               EXHIBIT D. U. S. MAP OF THE NUMBER OF REPORTED
               COLLISIONS AND FATALITIES AT GRADE CROSSINGS BY
               STATE IN 2005

                     6
                    WA
                    57                                                                                                                      0
                                      3          8                                                                                         ME
                                     MT         ND                                                                                          5
                1                    20         18              9                                                                0    0          1
               OR          1                                   MN                                                         13 VT NH              MA
               27         ID                     2             65               13                                        NY 4 2                11
                          23                    SD                              WI            5
                                       0                                                                                  43
                                                18                              84            MI                                                  0
                                      WY                                                      96                                                  RI
                                       1                             6                                                5                       3
                                                12                                                                                                1
         22           1                                             IA                                               PA               2      CT
         CA          NV                         NE                  77              31     21       8                80               NJ      6
         148          4          2              50                                  IL     IN      OH                                 44
                                UT          6                                      180     175     134     1                                1
                                                                                                                      2
                                18         CO        7              17                            7       WV                               DE
                                                                                                                     VA               1
                                                                                                                                      1
                                           36        KS             MO                                    35                                8
                                                                                                 KY                  51              MD
                                                                                                                                     MD
                                                     63             64                           86                                  19
                                                                                                                       6             19
                                                                                                                      NC
                                2                          6                             7 TN 78                      67           0
                               AZ      4                  OK              8                                     9                 DC
                               39     NM                                 AR                                    SC                  0
                                                          64
                                      20                                 72          10    16           12     75
                                                                                     MS    AL          GA
                                                  23                                 79    113         130
                                                                         20
                                                 TX
                                                                         LA
                                                 323                     131
           0                                                                                                   17              Fatalitie s
          AK                                                                                                   FL
           2                                                                                                   103             Collisions



                                                                               0-16 Fatalitie s (43 State s & DC )
                                      0
                                      HI                                       17-31 Fatalitie s (7 State s)
                                      1



Source: OIG Analysis of FRA Data




               Exhibit D. U. S. Map of the Number of Reported Collisions and
               Fatalities at Grade Crossings by State in 2005
                                                        18



EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                            Title

  Brenda R. James                 Program Director

  Wendy M. Harris                 Project Manager

  Audrey L. White                 Senior Analyst

  Thomas E. Lehrich               Chief Counsel

  Harriet E. Lambert              Writer-Editor




Exhibit E. Major Contributors to This Report
                                                                                               19



           APPENDIX. FEDERAL RAILROAD ADMINISTRATION COMMENTS



           U.S. Department
                                                  Memorandum
           of Transportation
           Federal Railroad
           Administration

   Date    April 16, 2007
Subject:   Response to Draft Audit on Highway-Rail Grade Crossings
           Project No. 06M3003M000



  From:    Joseph H. Boardman
           Administrator
    To:    Kurt W. Hyde
           Assistant Inspector General
           For Surface and Maritime Programs


           Thank you for your memorandum of March 22, 2007, transmitting the draft report in the
           subject audit. We at the Federal Railroad Administration (FRA) appreciate the diligent
           work that has gone into this report.

           I do want to caution that FRA has no general mandate to “oversee safety at the Nation’s
           highway-rail grade crossings.” Grade crossing safety is a shared, intermodal and
           intergovernmental challenge, including:

              • Investments in grade separations and traffic control devices and proper
                engineering of highways at grade crossing locations;
              • Enactment of suitable laws governing vehicle operator and pedestrian behavior;
              • Training of motorists during the licensure process so that they know how to
                negotiate grade crossings safely; and
              • Enforcement of laws governing road user behavior.



           Appendix. Federal Railroad Administration Comments
                                                                                      20


Nevertheless, given that reducing collisions at grade crossings is of utmost importance to
the Nation and to safe rail operations, FRA has stepped forward to be a strong advocate
for crossing safety within the U.S. Department of Transportation (DOT) and the railroad
community. For instance, with two other modal administrations, we provide funding to
Operation Lifesaver, Inc. (OLI), for public education and awareness, and FRA personnel
serve as OLI trainers and presenters. FRA also has been instrumental in assembling the
elements of Secretarial Grade Crossing Action Plans in 1994 and 2004.

The FRA does carry a number of very specific and important responsibilities for
ensuring that railroads do their part in grade crossing safety. FRA initiated the focus on
the use of train horns at highway-rail crossings by issuing Emergency Order No. 15, and
we have issued a final rule requiring use of the horn nationwide, except where criteria for
quiet zones are met. We enforce regulations requiring the inspection, testing, and
maintenance of grade crossing warning devices (which are maintained by the railroads
for the States and local governments) that require effective warning at least 20 seconds
before a train enters the crossing and that mandate prompt action when a crossing system
malfunctions. We have previously required that locomotives be highly visible when
approaching crossings (through the use of alerting lights), and railroads and car owners
are presently applying retroreflective material to all freight rolling stock under an FRA
rule so that trains already on a crossing can be clearly identified, even during hours of
darkness or inclement weather. FRA’s Track Safety Standards also require that
vegetation on railroad property be removed or trimmed back if it could block preview of
grade crossing signage. FRA carefully investigates any allegation that the breach of a
duty owed by a railroad under FRA regulations or railroad operating rules may have been
the cause of a grade crossing collision; and, if breach of a duty is shown, we seek to take
whatever actions are appropriate to prevent a recurrence.

Apropos the instant topic, FRA requires railroads to report every impact at a grade
crossing, regardless of consequences, and thereby assembles the primary database relied
upon by the DOT, States, the research community, and others to assess and analyze
grade crossing safety. This database is an important element of the Railroad
Accident/Incident Reporting System, details of which are available to the public 24 hours
a day through our SafetyData Web page.

Findings and Recommendations Regarding Accident/Incident Reporting

The draft report, which we have had under discussion jointly for several months, finds
that FRA could do more to ensure mandatory compliance with grade crossing collision
reporting requirements. In fact, FRA has already taken the lessons from this audit and is
committed to a sustained effort.



Appendix. Federal Railroad Administration Comments
                                                                                         21


We have pointed out to OIG staff that, even prior to the vigorous reviews conducted on
major railroads over the last 2 years, the likely outside limit for unreported collisions was
on the order of 4 percent; and nothing in the current draft report would cause us to
rethink that conclusion. We have further pointed out that the RAIRS data is consistently
more complete and accurate with respect to crossing fatalities than its only public source
equivalent (the Fatal Accident Reporting System). Nevertheless, with the information
from participating States and OIG, we have concluded that diversion of additional staff
hours from other work is warranted in order to more effectively ensure, insofar as is
possible, that each collision and resulting casualty is reported.

I am disappointed that the draft report did not refer to the action FRA has taken during
the period of this audit. Our staff has worked diligently to determine railroad
compliance with reporting requirements for incidents at highway-rail crossings. At this
late date, it is simply erroneous to state that “Currently, FRA does not … have an action
plan for periodic reviews of the railroads’ grade crossing collision records” or to
“conduct periodic reviews.” Please see attached excerpts from our National Safety
Program Plan (NSPP).

It is true that our current written plans do not include an element to “test samples” to
determine the accuracy of data elements on the form; however, in fairness this was first
proposed to FRA in the version of the draft report to which we now respond, likely
based on techniques employed and findings made by FRA in auditing a railroad in
November 2006.

Your office deserves great credit for keeping these issues to the fore, and FRA’s safety
program deserves credit for taking necessary actions.

Our responses to your set of recommendations on this topic are interlineated below:

OIG Recommendation:

“Strengthen safety oversight by ensuring that the railroads comply with
mandatory requirements to report each grade crossing collision to FRA’s accident
reporting system by:

        “a. Developing and implementing an action plan for conducting periodic
        reviews of the grade crossing collision records maintained by each railroad,
        including promptly notifying the responsible railroads when unreported
        collisions are identified.”




Appendix. Federal Railroad Administration Comments
                                                                                     22


     Response: After coordination with OIG staff, and effective this fiscal year, FRA
     put in place, as part of its NSPP, a multiyear planning process to review the
     records of major railroads not less than once every 3 years and with greater
     frequency, as necessary, to bring about corrective action for any significant
     deficiencies detected. This formalizes a process that has been in place since
     2005. We also have initiated reviews of commuter railroads and major regional
     railroads, with the objective to cover each at least once every 5 years (again with
     followup as needed). Excerpts from the NSPP are excerpted in the attachment.
     Additional guidance will be issued for FY 2008 to ensure that each region is
     following a parallel course. Railroads scheduled for periodic reviews under the
     NSPP together account for a very high percentage of crossing collisions, fatalities
     and injuries. FRA will continue to look at records of short line and tourist
     railroads as resources permit, in connection with the normal inspection and
     oversight process.

     “b. Testing samples of the railroads’ grade crossing collision reports to
     determine whether the information is accurate, timely, and complete,
     including comparing such reports to those generated by local law
     enforcement agencies.”

     Response: FRA generally agrees with this recommendation and seeks further
     consultation regarding means of implementation as experience in working with
     available resources is gained.

     The FRA has automated routines in place that are used by the database contractor
     to determine insofar as possible that reports are filed timely, that data within a
     report is consistent, and that data among the several primary reports (forms
     6180.57, 6180.54, 6180.55, etc.) are consistent. Reports found to have apparent
     errors or omissions are returned to the railroad for correction.

     During FRA audits of railroad reporting, exemplary records have been selected
     for audits to determine consistency among source records on the railroad. In the
     example cited in the OIG draft report, a set of records involving train speeds of
     35 mph or above was selected for more detailed examination to ascertain if
     casualties occurred that were not reported, based upon an unexpected absence of
     casualties in the subject data set. FRA will continue to seek to apply this type of
     sampling technique as it goes forward with railroad reporting reviews.

     As suggested by previous drafts of this report, FRA has encouraged participating
     and nonparticipating States to join with us in using police reports to verify that
     railroad reports are made and to identify any material discrepancies, including


Appendix. Federal Railroad Administration Comments
                                                                                      23


     identification of any apparent injuries in the event. It should be noted that
     reconciliation of each of these data elements may not be feasible within existing
     resources. (For instance, under the reporting system, the injury must be followed
     up and reported only if medical treatment is provided, while a responding police
     officer will often only know that the vehicle occupant was transported to a
     hospital and may not be aware in some cases that only first aid or observation
     was ordered.)

     In the previous OIG audit report titled “Audit of Oversight of Highway-Rail
     Grade Crossing Accident Reporting, Investigations, and Safety Regulations,”
     dated November 28, 2005, you recommended that FRA:

            Collect and analyze independent information on crossing collisions
            (including event recorder data and accident reports) from railroads and
            local or state law enforcement agencies, using a pilot program. The pilot
            should be conducted in the States that have the most grade crossing
            accidents year after year and designed to collect information that will
            allow FRA to evaluate the cause of collisions, type of warnings in place,
            and railroads’ compliance with Federal safety regulations for each crossing
            fatality.

     In response to that recommendation, FRA structured a study that involves at least
     one State from each of FRA’s eight regions, including the States with the most
     crossings and collisions. State agencies have obtained and provided police
     reports, and State rail agencies that conduct their own investigations of these
     events have provided copies of the reports. These independent source documents
     have been compared with forms 6180.57 and related forms for the same events to
     determine (1) that all events have been reported and (2) that data contained on the
     form 6180.57 is accurate, including information bearing on the cause of the event.

     Although FRA is still completing the report of that pilot study, the following
     tentative conclusions have been reached:

               • For the great majority of police reports, matching forms 6180.57
                 were filed.
               • There appears to be no pattern of discrepancies evident from the
                 reports (e.g., no indication that railroads have misrepresented the
                 events in question).
               • In general, the 6180.57 forms provided more useful detail, although
                 in some cases police report narratives shed additional light on
                 motorist behavior.

Appendix. Federal Railroad Administration Comments
                                                                                     24



     Nevertheless, FRA agrees that when conducting onsite reviews of samples of
     railroad reports (6108.57 forms), FRA can and should require production of the
     matching police reports.

     “c. Issuing a violation and assessing a civil penalty each time a railroad fails
     to submit a grade crossing collision report in accordance with Federal
     requirements, on a consistent basis. Moreover, FRA should assess higher
     civil penalties against each railroad that repeatedly fails to report crossing
     collisions.”

     Response: FRA generally concurs in this recommendation, with the reservations
     expressed below.

     In mid-2004, the Acting Associate Administrator for Safety issued a verbal
     instruction that each clear-cut violation of an accident/incident reporting
     obligation—whether it related to a crossing collision, employee injury, or train
     accident—should, absent special circumstances, be the subject of a proposed civil
     penalty. The subject OIG report reflects that this policy has generally taken hold.

     However, it should be noted that use of civil penalty authority is subject to the
     general guidance contained in Title 49 Code of Federal Regulations (CFR) Part
     209, Appendix A, which specifies criteria to be applied in making these
     determinations, and Appendix C, which addresses small entities as required by
     the Regulatory Flexibility Act and the Small Business Regulatory Enforcement
     Fairness Act (SBREFA). So, for example, should an FRA inspector encounter a
     single mistaken failure of a small railroad to report a grade crossing collision
     (e.g., out of confusion with the monetary threshold required for rail equipment
     accident/incidents), and should the railroad immediately file a report as required,
     FRA might omit use of a civil penalty out of deference to the congressional
     policy related to small entities and in recognition of the fact that the
     circumstances are unlikely to be repeated.

     The FRA does agree that accident/incident reporting is so fundamental to the
     system of railroad safety oversight and program development that strong
     emphasis on enforcement is warranted when noncompliance is detected.
     Accordingly, FRA will amend Part 209, the General Manual, and the Operating
     Practices Compliance Manual to make obligatory the submission of violation
     reports for each detected violation of 49 CFR Part 225, when the violation in
     question is a clear-cut failure to report (i.e., not involving any question with
     regard to interpretation of the regulation or sufficiency of the facts constituting


Appendix. Federal Railroad Administration Comments
                                                                                       25


       the alleged failure), subject to application of SBREFA-mandated considerations
       where relevant.

       The FRA has the right to cite a railroad for each day a violation continues. This
       can represent a potentially very high liability for each accident/incident not timely
       reported. FRA will utilize this mechanism (citing for multiple days) to assess
       more substantial penalties where railroad conduct is persistent and without
       substantial justification.

Finding and Recommendation Regarding Crossing Sight Distances

The report finds that “FRA has no assurance that sight distances are maintained in States
that lack laws, but it can do more to address this safety issue.” Once again, it is
necessary to remind OIG that FRA does not have general authority or responsibility for
grade crossing safety. Traffic control authorities at the State and local levels need to
select traffic control devices that are suitable, given all circumstances at the crossing,
including sight distances. A majority of States can and do try to ensure suitable sight
distances by requiring removal of vegetation.

Certainly, FRA’s reporting system gathers information regarding sight distance
obstructions in crossing accidents because this can be important for safety. Obstructions
can be permanent or temporary in nature (e.g., buildings, seasonal vegetation). They
may occur on railroad property, private property, or public property abutting the
crossing. They may be found at crossings where they are highly relevant to motorist
behavior, because the traffic authority has provided only passive signage, or they may
be of questionable concern because motorist behavior is unequivocally directed by
traffic control devices, particularly flashing lights and gates. Obstructions may be
objects to which society attaches great value (well-maintained improvements to
property, mature trees of aesthetic value and trees relied upon as windbreaks to protect
topsoil), or they may be of no intrinsic value.

The FRA is in a position to address a very small segment of the issues associated with
sight distances at crossings. It is interesting to note that of the 689 sight obstructions
mentioned (accounting for less than 5 percent of the collisions for the study period),
only standing rail equipment (82) and vegetation (142) are conditions that are
realistically under the railroad’s control, and it is not feasible to avoid some compromise
of sight distances with respect to standing rail equipment in every case.

However, with the Federal Highway Administration (FHWA) and other DOT modes,
we have contributed to the development of suitable guidance regarding how adequate
sight distance might be determined, and the results are published as a report of the


Appendix. Federal Railroad Administration Comments
                                                                                        26


Department’s Technical Working Group, titled “Guidance on Traffic Control Devices at
Highway-Rail Grade Crossings” (November 2002). We are prepared to play a
constructive role as part of the larger intermodal and intergovernmental grade crossing
team to further advance this area of work.

Your specific recommendation and our response follow:

OIG Recommendation:

“We recommend that FRA work with FHWA to develop model legislation for
States to improve safety by addressing sight distances at grade crossings that are
equipped solely with signs, pavement markings, and other passive warnings.”

Response: FRA supports the intent of this recommendation. FRA will work with
FHWA to develop model State legislation addressing sight distances at grade crossings
equipped with passive warning signs. Such model legislation would be developed using
existing State statutes as a guide and would be distributed to all States with the goal that
they consider the legislation and take appropriate action as a result.

Conclusion

Once again, I want to compliment the OIG staff for diligence and creativity in
approaching the issues involved in this and prior audits regarding grade crossing safety.
Although there is no single entity at the Federal, State, or local level that is capable of
addressing every area of concern unilaterally, each element of Government and each
private entity implicated in the challenge of grade crossing safety should be willing to
take the next steps that will be required to address growing populations, rising motor
vehicles miles, and growing rail operations. FRA is prepared to do its part.

                                             #




Appendix. Federal Railroad Administration Comments
                                                                                    27


                                                                          Attachment

             Excerpt from National Safety Program Plan, FY 2007


Project Number:     HQ-OP-04-07
Name of Project:    Part 225 System Audits (Accident/Incident Reporting)
Time Frame:         From: October 1, 2006
                    To: September 30, 2007

Brief description of proposed project, including purpose: FRA HQ is planning to
arrange comprehensive Part 225 audits on the following Class I railroads during FY
2007:

       1. CSX Transportation (CSX): Jacksonville, FL–October 2-6, 2006, and November
          13-17, 2006.
       2. Amtrak: Washington, DC–January 15-26, 2007.
       3. NS Railway:
             Decatur, IL–Illinois Division, March 5-9, 2007;
             Fort Wayne, IN–Lake Division, April 2-6, 2007;
             Roanoke, VA–Pocahantas Division, May 7-11, 2007;
             Roanoke, VA–System Reporting Office, June 4-8, 2007;
             Norfolk, VA–System Occupational Health Office, June 11-15, 2007.

To address the Office of Inspector General (OIG) audit recommendations, FRA has
commenced a cyclical review of highway-rail grade crossing accident/incident reporting
by the major railroads and will maintain a maximum interval between the reviews of not
more than 3 years. FRA also will conduct followup reviews as indicated. Beginning in
2007, each FRA region also will specify in its segment of the NSPP the Class II
railroads and commuter railroads on which it will conduct reviews during the period and
will conduct a review on each railroad at least every 5 years.

Brief description of reasons for the project: To determine whether or not
accidents/incidents are being properly reported. Since FRA’s inspection focus is data
driven, the accident/incident data reported to FRA by the Nation’s railroads must be
accurate.

Total and regional resources needed: Five to seven inspectors per project. Inspectors
are requested from the regions where the specific railroad operates.




Appendix. Federal Railroad Administration Comments
                                                                                                   28


                                   FRA HQ Part 225 Audits

        FY 2006                      FY 2007            FY 2008            FY 2009            FY 2010
                                     (See Above)
Union Pacific (UP) –                                    UP – TBD           KCS – TBD          UP – TBD
Completed 11/10/05
Canadian National (CN) –                                CN – TBD           CSX – TBD          CN – TBD
Completed 2/17/06
Canadian Pacific (CP) –                                 CP – TBD           Amtrak –           CP – TBD
Completed 3/3/06                                                           TBD
BNSF Railway (BNSF) –                                   BNSF – TBD         NS – TBD           BNSF – TBD
Completed 6/30/06
Kansas City Southern (KCS) –
Completed 8/11/06


                           Region 1 Class II and Commuter Railroads

        FY 2007                      FY 2008            FY 2009            FY 2010            FY 2011
Port Authority Trans Hudson     Mass Bay Commuter       Pan Am Railways    (CRSH) – TBD       PATH – TBD
(PATH) – Completed 11/13/06     Railroad (MBAX) –       – TBD
                                TBD
New Jersey Transit (NJTR) –     Long Island Rail Road   Providence &       Buffalo &          NJTR – TBD
04/16/07                        (LI) – TBD              Worcester (PW) –   Pittsburg (BP) –
                                                        TBD                TBD
Conrail Shared Assets (CRSH)    New York & Atlantic     New York                              MMA – TBD
– 6/11/07                       (NYA) – TBD             Susquehanna &      New England
                                                        Western (NYSW)     Central (NECR)
                                                                           – TBD
                                                        – TBD
Maine, Montreal & Atlantic      Metro North Railroad
(MMA) – 06/18/07                (MNCW) – TBD


                           Region 2 Class II and Commuter Railroads

        FY 2006                      FY 2007            FY 2008            FY 2009            FY 2010
Wheeling and Lake Erie (WE) –   Reading Blue            Southeastern       MARC (MTA)         RBNW – TBD
3/2006                          Mountain and Northern   Pennsylvania       – TBD
                                (RBNW) – 3/2007         Transportation
                                                        (SEPTA) – TBD
                                Virginia Railway                           WE – TBD
                                Express (VRE) – TBD




Appendix. Federal Railroad Administration Comments
                                                                                                             29


                                      Conrail Shared Assets
                                      (CRSH) – TBD


                             Region 3 Class II and Commuter Railroads

             FY 2006                       FY 2007                FY 2008               FY 2009           FY 2010
                                                              Florida East Coast
                                                              (FEC) – TBD
   Paducah & Louisville (PAL)                                                           PAL – TBD

                                                              Tri-Rail (SFRTA) –
                                                              TBD
                                                              NC/ATK (ATK) –
                                                              TBD
   Nashville & Eastern (NERR)                                                          NERR – TBD




                             Region 4 Class II and Commuter Railroads

          FY 2007                         FY 2008               FY 2009              FY 2010           FY 2011
Elgin, Joliet, & Eastern Railway   Northern Indiana           Conrail Shared       Belt Railway of   Dakota,
Co. (EJE)                          Commuter                   Assets (CRSH)        Chicago (BRC)     Minnesota &
                                   Transportation District    – TBD                – TBD             Eastern (DME) –
                                   (NICD) – TBD                                                      TBD
Wisconsin & Southern Railroad      Northeast Illinois                              Indiana Harbor
Company (WSOR)                     Regional Commuter                               Belt (IHB) –
                                   District (NIRC/METRA)                           TBD
                                   – TBD




                             Region 5 Class II and Commuter Railroads

             FY 2006                        FY 2007               FY 2008               FY 2009           FY 2010
                                      Trinity Rail Express     Port Terminal                           TRE – TBD
                                      (TRE)                    Railroad
                                                               Association
                                                               (PTRA) – TBD
                                      New Mexico Rail                                                  NMRX – TBD
                                      Runner Express
                                      (NMRX)




 Appendix. Federal Railroad Administration Comments
                                                                                                     30


                             Region 6 Class II and Commuter Railroads

         FY 2007                       FY 2008              FY 2009       FY 2010              FY 2011
                                  Iowa Interstate
Alton & Southern Railway
                                  Railroad, Ltd (IAIS) –                 ALS – TBD           IAIS – TBD
Company (ALS)
                                  TBD
                                  Missouri & Northern
Iowa Chicago and Eastern          Arkansas Railroad
                                                                         ICE – TBD           MNA – TBD
Railroad Company (ICE)            Company (MNA) –
                                  TBD
                                  Terminal Railroad
Kansas and Oklahoma Railroad
                                  Association of St.                     KO – TBD            TRRA – TBD
Company (KO)
                                  Louis (TRRA) – TBD
Kyle Railroad Company
                                                                         KYLE – TBD
(KYLE)

                             Region 7 Class II and Commuter Railroads

            FY 2007                 FY 2008                 FY 2009        FY 2010             FY 2011
  Amtrak – Third Quarter FY 07      ACEX – TBD              CORP – TBD     ATK – TBD           ACEX – TBD
  Southern California Regional      NCDX – TBD              PCJX – TBD     SCAX – TBD          NCDX – TBD
  Rail Authority (SCAX) –
  Fourth Quarter FY 07
  Altamont Commuter Express
  Authority (ACEX)
  Central Oregon Pacific Railroad
  (CORP)
  North County Transit District
  (NCDX)
  Peninsula Corridor Joint
  Powers Board (PCJX)

                             Region 8 Class II and Commuter Railroads

            FY 2006                       FY 2007           FY 2008          FY 2009              FY 2010
  BNSF Ft. Worth, TX – 6/2006       Alaska Railroad (AAR)   DM&E – TBD     AAR – TBD           DM&E – TBD
                                    – Scheduled 9/2007
  Dakota, Minnesota & Eastern       Sound Transit –         MRL – TBD      Sound Transit –     MRL – TBD
  (DM&E) – 5/2006                   Scheduled 6/2007                       TBD
  Montana Rail Link (MRL) –
  9/2006




 Appendix. Federal Railroad Administration Comments
                                                                                31


  The following page contains textual version of the graph found in this document.
  This page was not in the original document but has been added here to assist screen
  readers.




Section 508 Compliant Presentation
                                                                                32


The Federal Railroad Administration Can Improve Highway-Rail Grade Crossing Safety
                        Section 508 Compliant Presentation

Exhibit D. U. S. Map of the Number of Reported Collisions and Fatalities at Grade
Crossings by State in 2005

                                 2005 Grade Crossing Data Per State
                   #    State                  Collisions Fatalities Injuries
                   1    Alabama                       113         16      45
                   2    Alaska                          2           0       0
                   3    Arizona                        39           2       5
                   4    Arkansas                       72           8     40
                   5    California                    148         22      58
                   6    Colorado                       36           6     18
                   7    Connecticut                     6           3       2
                   8    Delaware                        8           1       3
                   9    District of Columbia            0           0       0
                   10   Florida                       103         17      21
                   11   Georgia                       130         12      18
                   12   Hawaii                          1           0       0
                   13   Idaho                          23           1       6
                   14   Illinois                      180         31      82
                   15   Indiana                       175         21      26
                   16   Iowa                           77           6     32
                   17   Kansas                         63           7     32
                   18   Kentucky                       86           7     26
                   19   Louisiana                     131         20      44
                   20   Maine                           5           0       2
                   21   Maryland                       19           1       1
                   22   Massachusetts                  11           1       6
                   23   Michigan                       96           5     13
                   24   Minnesota                      65           9     28
                   25   Mississippi                    79         10      30
                   26   Missouri                       64         17      31
                   27   Montana                        20           3       4
                   28   Nebraska                       50         12      22
                   29   Nevada                          4           1       0
                   30   New Hampshire                   2           0       0




   Section 508 Compliant Presentation
                                                            33



               31   New Jersey           44     2      11
               32   New Mexico           20     4       7
               33   New York             43    13      10
               34   North Carolina       67     6      34
               35   North Dakota         18     8       4
               36   Ohio                134     8      37
               37   Oklahoma             64     6      34
               38   Oregon               27     1       4
               39   Pennsylvania         80     5      17
               40   Rhode Island          1     0       0
               41   South Carolina       75     9      17
               42   South Dakota         18     2       9
               43   Tennessee            78     7      28
               44   Texas               323    23     143
               45   Utah                 18     2       8
               46   Vermont               4     0       3
               47   Virginia             51     2      12
               48   Washington           57     6      14
               49   West Virginia        35     1       4
               50   Wisconsin            84    13      20
               51   Wyoming               1     0       1
                    GRAND TOTAL....   3,050   357   1,012




Section 508 Compliant Presentation
